WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.

Telly Kavantzas y, State of Florida

(Petitioner) (Respondent)
1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
{Z Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a ber of the Bay ie Supreme Court of the United States (Please explain if
your name has sonife your jSsion):

Signature

 

Date:

 

 

Celia Terenzio
OM MMs. OMs. (Miss

 

(Type or print) Name.

Firm Office of the Attorney General

 

Address _1515 N. Flagler Drive
City & State West Palm Beach, Florida Zip 33401
Phone 561-837-5016

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Janice Bergman, Assistant Federal Public Defender
1 E. Broward Blvd. Suite 1100 Fort Lauderdale, Fl 33301
Janice_Bergman@fd.org
